L

\

United States Court of Appeals
For the First Circuit
No. 19-2211
SAUL MANGUAL-CORCHADO,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.
JUDGMENT
Entered: April 22, 2020
Petitioner Saul Mangual-Corchado seeks a certificate of appealability ("COA"), ostensibly
in connection with the district court's summary denial of a series of motions filed in the district
court in mid-2019. See 3:94-cr-00363-JAG-3 Dkt. 259-262 (motions); 263 (electronic order
denying). The district court properly denied those motions because, at best, they were
unauthorized second or successive 28 U-S.C. § 2255 motions and because petitioner invoked
inapposite legal authority. Rather than address the district court's actual reasoning for denying the
motions, petitioner uses his application for COA filed with this court to revisit arguments based
on United States v. Davis, 139 S. Ct. 2319 (2019), and other recent Supreme Court precedent,
arguments already rejected by this court in the course of denying petitioner's two recent
applications for leave to file a second or successive 28 U.S.C. § 2255 motion. See Appeal 191904, Judgment entered 1/29/2020; Appeal 17-1473; Judgment entered 4/05/2019.
The district court properly denied the underlying motions as attempted unauthorized
second or successive § 2255 motions, and, in any event, petitioner has waived any challenge to the
merits of the district court's ruling(s) by failing with the current COA application to address the
claims actually presented below and the district court's reasoning for rejecting same. See generally
28 U.S.C. § 2253 (c)(2) (petitioner seeking COA must discharge burden of "ma[king] a substantial
showing of the denial of a constitutional right"); see also Peralta v. United States. 597 F.3d 74, 84

Case 3:17-cv-01856-JAG Document 7 Filed 04/10/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

SAUL MANGUAL-CORCHADO,
Petitioner,
v.

CIVIL NO. 17-1856QAG)

UNITED STATES OF AMERICA,
Respondent.

JUDGMENT
Pursuant to the First Circuit’s denial of Petitioner’s request for leave to file a second
or successive motion under 28 U.S.C. 5 2255, Docket No. 6, Judgment is hereby entered
DISMISSING WITH PREJUDICE Petitioner’s case. This case is closed for statistical purposes.

IT IS SO ORDERED.
In San Juan, Puerto Rico this Wednesday, April 10, 2019.

s/ lay A. Garcia^Gregory
JAY A. GARCIA'GREGORY
U.S. DISTRICT JUDGE

CM/ECF LIVE - U.S. District Court for the District of Puerto Rico-Display Receipt

Page 1 of 1

United States District Court
District of Puerto Rico
Notice of Electronic Filing
The following transaction was entered on 10/8/2019 at 3:39 PM AST and filed on 10/8/2019
Mangual-Corchado v. USA
Case Name:
3:17-cv-Ol 856-JAG
Case Number:
Filer:
WARNING: CASE CLOSED on 10/24/2017
Document Number: 9(No document attached)
Docket Text:
ORDER denying [8] Motion requesting Order. Signed by Judge Jay A. Garcia-Gregory on
10/8/2019. (Hr)

https://ecf.prd.circl.dcn/cgi-bin/DisplayReceipt.pl7710891229517092-L_l_0-l

10/9/2019

Additional material
from this filing is
available in the
Clerk's Office.

K

